NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING
MOTION AND, IF FILED, DETERMINED
IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
SECOND DISTRICT

KAREEM K. KIRK, SR.
Appellant
v.
JANET RICHARDSON AND MARIA
O. OSIMEN,
Appellees.

)
)
)
)
)
)
)
)
)
)

Case No. 2D19-89

Opinion filed February 5, 2020.
Appeal from the Circuit Court for
Hillsborough County; Elizabeth G. Rice,
Judge.
Kareem K. Kirk, Sr., pro se.
Janet Richardson, pro se.
Maria O. Osimen, pro se.

PER CURIAM.
Affirmed.
KHOUZAM, C.J., and MORRIS and LUCAS, JJ„ Concur.

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327

April 07, 2020
CASE NO.: 2D19-0089
L.T. No.: 12-CA-2888
KAREEM K. KIRK, SR.

v.

JANET RICHARDSON AND MARIA
O. OSIMEN

Appellant / Petitioner(s),

Appellee / Respondent(s).

BY ORDER OF THE COURT:
Appellant's "motion for discovery of unelaborated decision, of case ruling" and
"motion for 30 day extension of time to file notice of appeal" are stricken as
unauthorized. No further motions seeking rehearing will be entertained.
I HEREBY CERTIFY that the foregoing is a true copy of the original court order.
Served:
JANET RICHARDSON
MARIA O. OSIMEN

KAREEM K. KIRK, SR.
PAT FRANK, CLERK

ec

!

Mary Elizabeth Kuenzel

Clerk

*\

s

r
(r

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
SECOND DISTRICT, POST OFFICE BOX 327, LAKELAND, FL 33802-0327
March 13, 2020
CASE NO.: 2D19-0089
L.T. No.: 12-CA-2888
KAREEM K. KIRK, SR.

JANET RICHARDSON AND MARIA
O. OSIMEN

v.

Appellee / Respondent(s).

Appellant / Petitioners),
BY ORDER OF THE COURT:
Appellant's motion for rehearing is denied.

I HEREBY CERTIFY that the foregoing is a true copy of the original court order.
Served:
KAREEM K. KIRK, SR.
PAT FRANK, CLERK

JANET RICHARDSON
MARIA O. OSIMEN
mep
A

t

&

ii

*X

Mary Elizabeth Kuenzel
Clerk

INSTRUMENT#:.2017075256, BK: 24756 PG: 611 PGS: 611 - 613 02/27/2017 at
08:21:13-AM,
' 'DEPUTY CLERK:M,PEDRERO Pat Frank,Clerk of the Circuit Court
Hillsborough County

IN THE CIRCUIT COURT OF THE THIRTEENTH JUDICIAL CII%T
IN AND FOR HILLSBOROUGH COUNTY, FLORIDA
GENERAL CIVIL DIVISION
KAREEM KIRK, SR,
Plaintiff,

A
&

't
CASE NO.:

12-CA-2888

DIVISION:

C

v.
JANET RICHARDSON, and
MARIA O. OSIMEN,
Defendants.
FINAL JUDGMENT _ ltd FAVOR OF Def=E*/D»*J“PS
/

JAhJETRjCH/WDSOM/iWDMAPI-A O. OSlMBlJ .

THIS MATTER came before the Court for a non-jury trial on January 4, 2017, on the
Complaint, originally filed February 23, 2012. After several amendments, the operative
Amended Complaint was filed June 28, 2016, by the Plaintiff, KAREEM KIRK, SR, against the
Defendants, JANET RICHARDSON and MARIA O. OSIMEN. Plaintiff and Defendants were
self-represented at the non-jury trial. The Court has considered the Amended Complaint,
together with the relevant portions of the court file; has considered the testimonial and
documentary evidence presented by the parties in support of their respective claims and
defenses; has reviewed the parties’ written submissions in support of their respective positions;
has heard arguments of counsel; and has considered the applicable statutory and case law and
rules of procedure. Based on the foregoing, the following findings of fact and conclusions of law
are presented:
Findings of Fact & Conclusions of Law
Plaintiff filed a two-count Complaint against Defendants. Count 1 was pled as “Master
Servant Liability,” but in actuality, presents a negligence cause of action. Count 2 alleged a
cause of action for conversion. As to Count 1, to prevail on a claim of negligence, Plaintiff must
prove the four elements of negligence, including (1) duty, (2) breach, (3) proximate cause, and
(4) damages. As to Ms. Osimen, the Court finds that Plaintiff failed to prove all four of these
elements. With regard to the duty element, Plaintiff failed to prove that Ms. Osimen owed any
duty to him. Specifically, Plaintiff failed to prove that Ms. Richardson was an employee of Ms.
Osimen. At best, the relationship between Ms. Richardson and Ms. Osimen was one of an
independent contractor. The facts revealed that the relationship was based more on bartering or
gratuitous acts than anything else. Plaintiff did not prove that Ms. Osimen owned the trailer that
was involved in the accident that led to Plaintiff’s alleged injuries. Nor did Plaintiff prove that
Ms. Osimen owned the property where the accident occurred. Because Plaintiff failed to
establish that Ms. Osimen owed him a duty of care, the Court finds that there can be no breach.
There being no breach, the Court further finds that there can be no causation. Finally, because
Plaintiff did not prove the first three elements of a negligence cause of action, he further cannot
estal^jh££>p]ggfs$l}le 4aqra^s. 21 2017
Page 1 of3

t

/
/ i*

As to Ms. Richardson, the Court finds that Plaintiff has foiled to prove the four elements
of a negligence cause of action. With regard to the duty element, Plaintiff alleged that he was
“employed” by Ms. Richardson. Ms. Richardson disputed this contention, claiming that Plaintiff
gratuitously helped her as a “friend.” Plaintiff claimed that Ms. Richardson had a duty to
provide him with safe equipment to perform his assigned tasks. Even assuming Plaintiff was an
employee, the specific duties an employer owes to an employee depend partially on the contract
of employment and on statutes defining those duties. Such duties are usually conditioned upon
the employee acting within the scope of his employment. Thus, if the employee is not acting
within the scope of his employment, the employer has no duty to exercise reasonable care to
prevent harm. Unless required by statute, a master is not an insurer of a servant’s safety.
Accordingly, an employer is not required to provide an employee absolute safety under every
condition, and an employee cannot recover unless negligence on the part of the master is proven.
But, an employer is obligated to provide a reasonably safe place to work, using ordinary care and
diligence. This duty extends to providing reasonably safe instrumentalities. An employer must
make sufficient and appropriate inspection of the employment place to discover latent or
concealed dangers.
-PI9.r»ta ffyvd
Plaintiff has failed to prove that any of the federal or state regulations cited b^him apply
to Ms. Richardson." Evidence revealed that she employed, at best, two employees^ Plaintiff
foiled to cite to any statutes or regulations governing individuals who employ only one or two
employees. Thus, Ms. Richardson, at best, only had to provide a reasonably safe place to work.
The testimony revealed that it was the way in which Mr. Scott lowered the refrigerator, not a
defect in the trailer that caused the accident and Plaintiff’s alleged injuries. Ms. Richardson was
not present at the time, and as such, was not directing how the two men should load/unload the
appliance. Nor was there any evidence that the appliance was a known danger.
As with the analysis with respect to Ms. Osimen, because Plaintiff foiled to prove that
Ms. Richardson owed him a duty of care, no breach can be established. The general law in
Florida appears to support the contention that lay testimony is insufficient to support a finding of
causation where the medical condition or injury is not readily observable without medical
examination. The alleged injuries in this case are not readily observable to a lay person, as they
include a soft tissue injury and lower back injuries and/or difficulties. Plaintiff did not provide
the requisite medical testimony, based on a reasonable medical probability, that the injuries are
causally connected to the alleged negligence of Defendants. While lay opinion testimony can
establish the sequence of events, the inability or ability to perform work, pain, and similar factors
within the actual knowledge and sensory perception of the Plaintiff, lay testimony cannot be used
to establish a causal relationship, within a reasonable medical probability, as to conditions and
symptoms that are not readily observable. The Court finds that Plaintiff failed to meet his
burden on the causation element of a negligence cause of action.
With regard to damages, a person who sues for personal injuries has the burden of
proving the necessity and reasonableness of the charges associated with medical treatment. The
Court further finds that Plaintiff failed to meet his burden to prove the amount of damages
incurred in the past, that his injuries are permanent in nature or that he is entitled to damages for
future medical expenses, as well as pain and suffering. The Court finds that there was
insufficient evidence from which the trier of fact could, with reasonable certainty, determine the
amount of any medical expenses that Plaintiff would be likely to incur in the future. Given the
foregoing, the Court entered Final Judgment in fevor of Defendants on Count 1.
SCANNED FEB 21 201 V
Page 2 of3

Bk 24 756^ Pg 613
v.*
f

.

failed t^mve She ™°?* ^ entered
W6'"t"1 in a'1" of Defendants. Plaintiff
rw ? SI ^ .he °wned 1116 Proper at ^sue, or that he had the right to possess it The

p“sxr*r°‘bring a cuim °° “•*<* - "f„f, rrefoti6
It is therefore, ORDERED AND ADJUDGED as follows.
1. A Final Judgement is granted in favor of Defendants and

as to Counts 1 and 2 of the Amended Complaint.
2’

against Plaintiff

^ n0thiD8 by MS aCtion’ 811(1 Defendants shall go h

ence

3. The Court reserves jurisdiction to:
a. Determine Defendants’ entitlement to and amount of attorneys’
fees and court costs: and

* ifwvy

b. Enter any other or additional orders or judgments that may be
necessary or appropriate.
DONE AND ORDERED:

lg), ZD F?~~

ELIZABETH G. RICE
Circuit Court Judge

Electronic Copies Provided Through JAWfi muHi* tt g Mail to:
Kareem Kirk, Sr.
'
---------~
13119 Aarans Pond Dr., Apt 201
Tampa, Florida 33612
Pro Se Plaintiff
Janet Richardson
1113 West Grace Street
Tampa, Florida 33603
Defendant
Maria O. Osimen
7618 Horse Pond Road
Ode
De

20 1 7

Page 3 of3

Supreme Court of jflortba
MONDAY, MARCH 23, 2020
CASE NO.: SC20-407
Lower Tribunal No(s).:
2D 19-89; 292012CA002888A001ftC
KARLEEM K. KIRK SR.
Petitioner(s)

vs.

JANET RICHARDSON, ET AL.,
Respondent(s)

This case is hereby dismissed. This Court lacks jurisdiction to review an
unelaborated decision from a district court of appeal that is issued without opinion
or explanation or that merely cites to an authority that is not a case pending review
in, or reversed or quashed by, this Court. See Wells v. State, 132 So. 3d 1110 (Fla.
2014); Jackson v. State, 926 So. 2d 1262 (Fla. 2006); Gandy v. State, 846 So. 2d
1141 (Fla. 2003); Stallworth v. Moore, 827 So. 2d 974 (Fla. 2002); Harrison v.
Hyster Co., 515 So. 2d 1279 (Fla. 1987); Dodi Publ’g Co. v. Editorial Am. S.A.,
385 So. 2d 1369 (Fla. 1980); Jenkins v. State, 385 So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be entertained by the Court.
A True Copy
Test:

<22
John A. Tomasino
Clerk. Supreme Court
td
Served:
MARIA OOSIMEN
KARLEEM K. KIRK SR.
JANET RICHARDSON
HON. PAT FRANK, CLERK
HON. MARY BETH KUENZEL, CLERK
HON. ELIZABETH GICELLA RICE, JUDGE

lisi

<

J

DEPARTMENT OF VETERAN AFFAIRS

To whom it may concern,
I am with the Department of Veterans Affairs and Billing Department,
would like to inform you that we are in the process of preparing Mr. Kirks medical
and billing records for treatment of injuries. Our records show that Mr. Kirk was
treated and he is still being treated since September 2011 till this present day for
same injuries.
Mr. Kirk has informed us that he no longer has an attorney and is seeking
help in this matter. The Department of Veterans Affairs will forward a copy of Mr.
Kirk's Power of Attorney form to requesting and third parties in order to collect
on medical treatment.
We will have our attorney contact you for information of all parties related
insurance policy holders contact information as well as all other financial
information including but not limited to property assets, claims examiners and
addresses needed.

Respectfully,
Jane May

f

/

/

/

K '

.X-

[{

J J v'f ;

U^>^V\\v

■

'Vv\v>

DEPARTMENT OF VETERANS AFFAIRS
Office of Regional Counsel (673/008)
Lake View at Hidden River
8875 Hidden River Parkway, Suite 275
Tampa, FL 33637
Phone -f ~
Facsimile

September 1, 2015-

Mr. Kareem Kirk, Sr.
13119 Aarans Pond Dr.
Apt. 201
Tampa, FL 33612
Re: Medical Care Recovery Act Case - Kareem Kirk, Sr.
Subrogation Claim: $37,223.75
D/A:. September 1, 2011
Dear Mr. Kirk:
We have been informed that you are representing yourself for the injuries you sustained on or
about September 1, 2011, for which medical care was provided by the Department of Veterans
Affairs (VA). Please be advised that the VA, as a federahagency, is not bound by the notice
requirements of section 786.76, Florida Statutes. See, e.g.. U.S. vs. Summerlin, 310 U.S. 414
(1940).
The Federal Medical Care.Recovery Act, Title 42, United States Code, sections 2651 et seq.,-and
Title 38, United States Code, section 1729 provide that the United States may recover its
medicai expenses from, a responsible third party.
Accordingly, the government may
independently institute an action for recovery in federal court; it may intervene in the
underlying case and seek removal of the case to federal court; or it may assert a subrogation
claim in the underlying case.
Rather than exercising the government's right to institute an action or intervene in the
underlying case, the VA is electing at this time to assert a subrogation claim. You, thereby,
would continue to control the case. Enclosed is a copy of the VA's standard form entitled
Authorization and Agreement. Please sign and return the form to this office. Although Title 5,
United States Code, section 3106 precludes payment of attorney fees, by agreeing to protect
the government's claim, the VA will assist you in proving the need for and the cost of medical
care; providing testimony from the veteran's treating providers; and providing other reasonable^'
assistance as requested.
We believe that your cooperation with the VA will not only benefit your client's quest for
recovery, but it will also benefit our collection efforts. If suit has been instituted, please amend
the Complaint to include the following paragraph:
As a result of said injuries, the plaintiff has received and may in the future continue to
receive medical and hospital care and treatment furnished by the United States of
America. The plaintiff, for the sole use and benefit of the United States of America
under the provisions of Title 42, United States Code, sections 2651 et seq., and Title 38, .
/

/

I

/
.«^.
r r*5'

•

United States Code, section 1729, and with its express consent, asserts a claim for the
reasonable value of said past and future care and treatment.
Please provide us a copy of the Complaint and/or the Amended Complaint containing the above
allegation and including the cost of the. VA medical care as an item of special damages.
Additionally, if known to you, we would appreciate having the names, addresses and telephone
numbers of all third parties, any responsible insurance providers, policy limits of any policicies
and liability estimate.
If this is a Workers' Compensation case, under Title 38, United States Code, section 1729 and
Chapter 440, Florida Statutes, the VA is entitled to recover the cost of medical care provided for
the work-incurred condition. Florida Administrative Code, sections 69L-7.020 and 69L-7.501
adopts the Florida Workers' Compensation Health Care Provider Reimbursement Manual and
Florida Workers' Compensation Reimbursement Manual for Hospitals, respectively. These
manuals provide that federal facilities are entitled to payment of their usual charges Further
Florida Administrative Code, section 69L-7.602(4)(b)(9) states federal facilities may bill on their
usual form.
Please find enclosed the VA bills related to this claim. If you also require the medical
records, please contact the applicable Release of Information (ROI) office for the
• facility where the veteran was treated. A list of ROI contact information is attached for
your convenience.
Federal law does not require, provide for, or authorize itemization or further breakdown of billed
charges, as might be found in local medical institutions. Our hospital inpatient charges consist
of two per diem charges: room and board, and all inclusive ancillary charges. Room and board
charges vary by Diagnostic Related Group (DRG). Ancillary charges include facility charges for
nearly all items and services provided during the hospital stay. For a detailed examination of
VA billing methodology, please refer to Title 38, Code of Federal Regulations, section 17.101.
All future correspondence or questions should be directed to me. We look forward
to a mutually beneficial association.

PLEASE REMIT CHECK PAYABLE TO THE DEPARTMENT OF VETERANS AFFAIRS, '
C/O OFFICE OF REGIONAL COUNSEL, 140 FOUNTAIN PARKWAY, SUITE 520,
ST. PETERSBURG, FL 33716.
Sincerely,
OFFICE OF REGIONAL COUNSEL

MarCgewi/ ’Barney
Marigem Barney
Legal Assistant

Enclosures: VA Billing
2

I

r.

»

V—'

Department of Veterans Affairs
Office of Chief Counsel
Collections National Practice Group

August 1, 2017
Kareen K. Kirk
13'119 Aarans Pond Dr., Apt. 201
Tampa, FL 33612
Re: Information on Requesting Testimony from VA Providers: GCL 35383
Dear-Mr. Kirk,
I am writing in response to our phone conversation today and your follow-up voicemail message.
As an attorney in VA's Office of Chief Counsel, I am authorized "to determine whether VA personnel may
be interviewed, contacted or used as witnesses, including used as expert witnesses" based on the
Federal policy pronounced in 38 C.F.R. § 14.800, et. seq, implementing United States ex. ret. Touhy v.
Ragen, 340 U.S. 462 (1951). Based on Federal policy, VA personnel.may not be interviewed, contacted,
or used as witnesses, including used as expert witnesses except in, inter alia, "legal proceedings in which
the Department of Veterans Affairs, the Secretary of Veterans Affairs or the United States is a party, is
represented or has a direct and substantial interest." 38 C.F.R. § 14.801 and 38 C.F.R. § 14.807(b).
Upon receipt of a demand or request for testimony (which includes both subpoenas and court orders),
38 C.F.R. § 14.803 states: "the determining official will consider the effect in this case, as well as in
future cases generally, based oh the factors set forth in § 14.804, which testifying or producing records
not available for public disclosure will have on the ability of the agency or VA personnel to perform their ■
official duties." Among the factors for consideration prior to authorizing VA employee testimony are: (1)
the need to conserve the time of VA personnel to conduct their official VA duties to provide care and
treatment for veterans; .(2) whether such testimony would assist VA in performing its statutory duties;
(3) whether the presentation of testimony would be necessary 4:0 prevent the perpetration of fraud or
other injustice in the matter in question; (4) the need to minimize the possibility of VA's involvement in
issues unrelated to its mission and (5) other matters or concerns presented for consideration in making
the decision. 38 C.F.R. § 14.804.
Please note that VA providers shall honor requests by Veterans for medical statements by commenting
on their current health conditions and functional impairment within their electronic health record. VA
Form 10-5345a "Individuals' Request for a Copy of Their Own Health Information" (see attached)
provides specific means by which a veteran may easily request a descriptive statement to be placed into
their health record regarding the current status of an existing medical condition, disease, injury, which
includes a statement of diagnosis, prognosis, and assessment of function for purposes other than VA
disability claims. If the veteran wishes that the information be sent to another's attention, he will need
to also execute VA Form 10-5345 indicating that the information may be released to that office such as
his/ her legal representative.

/
/
!

